TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                            Office of Inspections and Evaluations




                 Revised Procedures Preceded Significant Increases
                   in Reports of Potential Disclosure of Personally
                               Identifiable Information




                      May 18, 2010 / Revised September 23, 2010

                           Reference Number: 2010-IE-R005




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.




 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                              DEPARTMENT OF THE TREASURY

                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             May 18, 2010



MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT

FROM:                        R. David Holmgren
                             Deputy Inspector General for Inspections and Evaluations

SUBJECT:                     Final Evaluation Report – Revised Procedures Preceded Significant
                             Increases in Reports of Potential Disclosure of Personally Identifiable
                             Information (# IE-10-003)

This report presents the results of our evaluation to determine why the Internal Revenue Service
(IRS) experienced a significant increase in the number of reported potential disclosures of
personally identifiable information.
This evaluation focused on the efforts by the IRS Office of Privacy, Information Protection and
Data Security to identify and manage potential disclosure of personally identifiable information
by the IRS. Inappropriate, unauthorized disclosure of personally identifiable information can
place taxpayers at increased risk for identity theft, which remains a serious problem in the
United States. Identity theft can create havoc in an individual’s life while creating barriers to
voluntary compliance for those taxpayers who have been victims of this crime.

Synopsis
This evaluation concentrated on a reported increase in the number of disclosure incidents that
began in April 2009. We analyzed data from IRS systems characterizing disclosure incidents,
interviewed field employees, and assessed the likely impact of new policy that changed internal
IRS procedures on the reporting of potential disclosures. Our analysis leads us to conclude that
the increase in disclosure incidents was related to revised reporting guidelines and requirements
published by the IRS in March and September 2009.
While we make no recommendations in this report, IRS managers reviewed the draft report and
concurred with the facts we developed and reported.
             Revised Procedures Preceded Significant Increases in Reports
             of Potential Disclosure of Personally Identifiable Information




Please contact me at (202) 927-7048 if you have questions or Kevin Riley, Director, Office of
Inspections and Evaluations, at (972) 249-8355.




                                                                                                2
                   Revised Procedures Preceded Significant Increases in Reports
                   of Potential Disclosure of Personally Identifiable Information




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 2
          Reporting Procedures Were Revised ............................................................ Page 3
          Interviewed Employees Were Aware of New Procedures ............................ Page 5
          Conclusion .................................................................................................... Page 5

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 7
          Appendix II – Major Contributors to This Report ........................................ Page 8
          Appendix III – Report Distribution List ....................................................... Page 9
      Revised Procedures Preceded Significant Increases in Reports
      of Potential Disclosure of Personally Identifiable Information




                       Abbreviations

IRS              Internal Revenue Service
PII              Personally Identifiable Information
                Revised Procedures Preceded Significant Increases in Reports
                of Potential Disclosure of Personally Identifiable Information




                                            Background

During 2009, the Treasury Inspector General for Tax Administration became concerned about an
increase in reports of potential disclosure of personally identifiable information (PII.)1
Inappropriate disclosure of PII can place individuals at higher risk of identity theft and may
erode public confidence in the Nation’s tax system, which is built upon the principle of voluntary
compliance with the provisions of the tax code.
The Federal Trade Commission reports that perpetrators of identity theft continue to victimize
hundreds of thousands of American citizens. While the overall number of identity theft
complaints dropped from 2008 to 2009, identity theft remains the single largest type of
complaint submitted to the Federal Trade Commission’s Consumer Sentinel Network with over
1.3 million complaints received since 2005.2
In July 2007, the Internal Revenue Service (IRS) established the Office of Privacy, Information
Protection and Data Security to protect sensitive data by reducing the risk of inadvertent
disclosures by IRS employees. The Office conducts assessments of potential disclosures that
might place taxpayers at increased risk for identity theft. In 2009, the Office investigated over
2,900 cases, which was a significant increase from 2008. When taxpayer risk has been
identified, the Office notifies taxpayers of potential issues and may offer credit monitoring or
related services that are designed to reduce the risk of actual identity theft.
This review was initiated as a limited scope evaluation of the disclosure incident reporting
process, with a focus on incidents that were reported during calendar year 2009. The intent was
to determine the reason for the increased rate of disclosure incident reporting.
The review was performed at the IRS National Headquarters in Washington, D.C., and supported
by field visits to Philadelphia, Pennsylvania, and Austin, Texas, during the period from
November 2009 through March 2010. This review was performed in accordance with the
Council of the Inspectors General for Integrity and Efficiency Quality Standards for Inspections.
Detailed information on our objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.


1
  Personally identifiable information (PII) refers to information that can be used to distinguish or trace an
individual’s identity, alone or when combined with other personal or identifying information. Examples of PII
include: names, Social Security Number, biometric records, date of birth, financial or bank account information,
and driver’s license numbers.
2
  The complete Consumer Sentinel Network Data Book for January – December 2009 (released February 2010) is
available on the Federal Trade Commission website at http://ftc.gov/sentinel/reports/sentinel-annual-
reports/sentinel-cy2009.pdf.
                                                                                                            Page 1
               Revised Procedures Preceded Significant Increases in Reports
               of Potential Disclosure of Personally Identifiable Information




                                   Results of Review

During 2009, the IRS took several steps to improve its ability to report and assess potential
breaches of PII. Revisions to incident reporting procedures were followed by significant
increases in the number of disclosure incidents (2,336 of 2,959 for all incident types recorded in
2009), exceeding the number of all incident types from the prior year (725 recorded in 2008).
                        Figure 1: Potential Disclosures Investigated




         Source: Treasury Inspector General for Tax Administration derived from IRS PII Tools
         Database.


IRS categorizes incidents involving the potential breach of PII as a Loss, Theft, or Disclosure.
   •   Loss: PII is lost during handling and/or shipment of paper-based records or computer
       media containing PII in electronic format.
   •   Theft: PII is stolen from IRS facilities or while in custody of IRS employees. Examples
       include the theft of computers and or related media, mobile devices, and paper files
       containing PII.
   •   Disclosure: PII is disclosed to unauthorized parties during routine business activity.
       Examples include: a person calling the IRS on a toll-free assistance number, purporting
       to be a taxpayer they are not and obtaining that taxpayer’s information; IRS employees
       failing to follow disclosure procedures and not properly authenticating the caller’s

                                                                                                Page 2
              Revised Procedures Preceded Significant Increases in Reports
              of Potential Disclosure of Personally Identifiable Information




       identity through a series of challenge questions for which only the taxpayer should have
       correct responses; or erroneous correspondence, where a notice, letter or other form of
       correspondence inappropriately contains another taxpayer’s information or is somehow
       misdirected to an incorrect address and opened by a recipient who is not the taxpayer.

Reporting Procedures Were Revised
In March 2009, the IRS Office of Privacy, Information Protection and Data Security
implemented revisions to how IRS personnel were required to report on these types of incidents.
The IRS uses its Computer Security Incident Response Center as a centralized reporting facility
for all computer security and privacy incidents. As part of the revised process, Privacy,
Information Protection and Data Security, and Computer Security Incident Response Center staff
modified reporting mechanisms to better integrate the reporting of disclosure incidents with other
security items. This action provided front-line employees and managers with a single
mechanism to report on all disclosure incidents not involving taxpayer correspondence.
Due to the volume and complexity of taxpayer correspondence (in excess of 190 million notices
and letters in calendar year 2009), the Privacy, Information Protection and Data Security staff
clarified that all taxpayer correspondence issues should first be reviewed by the IRS Notice
Gatekeeper. The Notice Gatekeeper is responsible for conducting an initial assessment of all
erroneous correspondence issues to determine the cause of the problem and to coordinate
operational steps to mitigate any taxpayer impact that may result. As part of the assessment, the
Notice Gatekeeper is responsible for verifying and reporting all disclosures of personally
identifiable information resulting from erroneous taxpayer correspondence to the centralized
reporting facility at the Computer Security Incident Response Center.
On March 29, 2009, the revised guidance was published for all front-line employees and their
managers. In the following months, the number of reported incidents spiked (see Figure 2).
In September 2009, subsequent policy was issued by the IRS Wage and Investment Division that
further clarified the types of erroneous correspondence that should be reported first to the Notice
Gatekeeper. This guidance formalized the expansion of erroneous correspondence to include
notices, letters, transcripts, faxes and other electronic transmissions containing taxpayer
information where these communications contained incorrect information were delivered to a
wrong party or were created by mistake. Previously, erroneous correspondence was narrowly
limited to notices.
Review of the IRS PII Tools Database reflects a second, much smaller increase in incidents
reported during September 2009, the majority of which were associated with Notice Gatekeeper
issues.




                                                                                            Page 3
                 Revised Procedures Preceded Significant Increases in Reports
                 of Potential Disclosure of Personally Identifiable Information




                              Figure 2: Disclosure Incidents – 2009


           450
                                     394
           400                              357
                                                   339
           350
           300
           250                                                         233
                                                         211
                                                                191
           200
                               139                                            153
           150                                                                      116
                                                                                            89
           100          65
                   49
            50
             0
                  Jan   Feb    Mar   Apr    May    Jun    Jul   Aug    Sep    Oct   Nov    Dec


       Source: Treasury Inspector General for Tax Administration derived from IRS PII Tools Database
       (based on Date of Incident; excludes Loss/Theft Incidents.)



The increase in disclosure incidents, which include both telephone and correspondence
disclosures, contrasts with taxpayer telephone call volumes for the same period. For calendar
year 2009, IRS reported 2,336 disclosure incidents compared to total call volumes in excess of
38 million calls and notice/letter volumes exceeding 190 million. During the time of the
identified increase in disclosure incidents, IRS experienced call volumes in the range of five
million calls per month each for February, March, and April 2009. Call volume dropped to just
over three million calls in May 2009. This suggests that the increase in the number of incidents
was unrelated to call volumes, which remained relatively steady from February through April,
while the increase in disclosures began immediately following the issuance of revised procedures
at the end of March.




                                                                                                       Page 4
              Revised Procedures Preceded Significant Increases in Reports
              of Potential Disclosure of Personally Identifiable Information




Interviewed Employees Were Aware of New Procedures
In November 2009, we interviewed employees from a field office where data showed disclosure
incidents had occurred. In each interview, employees expressed high awareness of revised IRS
disclosure procedures and the associated reporting process should a potential disclosure occur.
We were provided examples where employees had self-reported suspected disclosures and were
provided evidence where IRS disclosure procedures are reviewed as a normal part of quality
review processes conducted at the supervisory and at the program level.
We also observed locally implemented procedures that were adopted to prevent inadvertent
disclosures. For example, the IRS Income Verification Expedite Service is a fee-based program
that, with taxpayer consent, transmits taxpayer information to participating mortgage and
financial companies. The program facilitates income verification for taxpayers seeking to
borrow money from those companies. Many mortgage and financial companies submit Income
Verification Expedite Service requests in bulk and IRS processes these requests in batches of up
to 50 taxpayers per batch.
The secure transmission of Income Verification Expedite Service information is dependent upon
an IRS employee correctly entering a unique routing code into an information system. The
system provides no validation of that code and sporadic transcription errors caused taxpayer
information to be delivered to the wrong party. These incidents were identified and reported in
accordance with disclosure incident procedures.
IRS management worked with Income Verification Expedite Service employees to implement a
second-level review intended to ensure the routing code has been entered correctly. The process
requires that a lead clerk or supervisor review the input screen to verify the correct routing code
is input and to record his/her validation of the code by signing a form that is maintained with the
batched requests.
Finally, we identified no deviation from IRS incident reporting procedures, nor any other
individual causal factor that may have accounted for the overall increase in potential disclosure
incidents.

Conclusion
Between March and June 2009, the IRS experienced a sharp increase in the number of reported
PII disclosure incidents. An additional spike occurred in September 2009. Our review was
conducted to determine the cause of the increase and to determine if taxpayer personally
identifiable information was being put at risk by the IRS. Our analysis of reported incident data,
policy changes, and interviews with front-line personnel lead us to conclude that the increase in
disclosure incidents was related to revised reporting guidelines and requirements published by
the IRS in March and September 2009. These guidelines formalized the expansion of erroneous
correspondence to include notices, letters, transcripts, faxes and other electronic transmissions
                                                                                             Page 5
               Revised Procedures Preceded Significant Increases in Reports
               of Potential Disclosure of Personally Identifiable Information




containing taxpayer information where these communications contained incorrect information,
were delivered to a wrong party, or were created by mistake. Improved reporting procedures
better integrated the reporting of disclosure incidents with other security items and provided
front-line IRS employees and managers with a single mechanism to report all disclosure
incidents. As a result, the IRS is in a better position to prevent potential disclosures of sensitive
taxpayer information.




                                                                                               Page 6
             Revised Procedures Preceded Significant Increases in Reports
             of Potential Disclosure of Personally Identifiable Information




                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine why the IRS experienced an increase
during the summer 2009 timeframe in the number of reported incidents where PII may have been
inappropriately disclosed to third parties.
To accomplish our objective, we:
I.     Interviewed Privacy, Information Protection and Data Security, and Wage and
       Investment Division senior staff and field staff.

II.    Determined the IRS efforts to identify and report on potential disclosure of PII.

III.   Determined the changes in policy or workload that may have contributed to the increased
       number of incidents.

IV.    Determined the number and type of incidents that occurred during calendar year 2009.

V.     Determined other factors that may have contributed to the increased number of incidents.




                                                                                           Page 7
            Revised Procedures Preceded Significant Increases in Reports
            of Potential Disclosure of Personally Identifiable Information




                                                                 Appendix II

               Major Contributors to This Report

Kevin Riley, Director
Damon Plummer, Program Evaluator




                                                                        Page 8
             Revised Procedures Preceded Significant Increases in Reports
             of Potential Disclosure of Personally Identifiable Information




                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attention: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Director, Office of Privacy, Information Protection and Data Security OS:PIPDS
Director, Privacy and Information Protection OS:PIPDS:PIP
Director, Customer Accounts Services SE:W:CAS
Director, Accounts Management SE:W:CAS:AM
Director, Submission Processing SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC




                                                                                    Page 9
